      Department of Homeland Security




      FEMA’s Efforts To Recoup Improper Payments in
   Accordance With the Disaster Assistance Recoupment
                  Fairness Act of 2011 (4)




OIG-13-17                                  December 2012

              ~ OFFICE O}' INSPECTOR GENERAL
              •              Department ofHomdand Security




                                DEC 2 1 2012

MEMORANDUM FOR:              William L. Carwile, III

                                                            ':::::~:RecOVery

FROM:
                             Assistant   1~~~~~1~:,
                             Office of Emergency Management Oversight

SUBJECT:                     FEMA's Efforts To Recor.Jp Improper Payments in
                             Accordance With the Disoster A5$istonce Recoupment
                             Fairness Act of 2011 (4)

Attached for your information is our final letter report, FEMA's Efforts To Recoup
Improper Payments in Accordance With the Disoster Anistonce Recoupment Foirnes5
Act of 2011 {4}. As required by the subject legislation, we are reporting on the cost-
effectiveness of FEMA's efforts to recoup improper payments. This is the fourth in a
series of six reports that will be issued every 3 months through June 2013. We are not
making any recommendations in this report.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight ~nd
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Kaye McTighe, Director; Adrian Dupree, Audit
Manager; Stuart Josephs, Auditor; and Aaron Naas, Program Analyst.

Please call me with any questions, or your staff may contact John Kelly, Deputy Assistant
Inspector General, Office of Emergency Management Oversight, at (202) 254-4100.

Attachment
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   The Disaster Assistance Recoupment Fairness Act of 2011 (DARFA; Section 565 of the
   Consolidated Appropriations Act, 2012, P.L. 112-74) provides a limited-time,
   discretionary authority for the Administrator of the Federal Emergency Management
   Agency (FEMA) to waive debts arising from improper payments provided for disasters
   declared between August 28, 2005, and December 31, 2010. Otherwise, FEMA is
   required to recoup improperly paid amounts under Federal debt collections laws.
   DARFA directs the Department of Homeland Security (DHS) Inspector General to report
   on the cost-effectiveness of FEMA’s efforts to recoup improper payments. This is the
   fourth in a series of six reports that are to be issued every 3 months through June 2013.

   Following Hurricanes Katrina and Rita in 2005, and other disasters up to December 31,
   2010, FEMA disbursed more than $8 billion in assistance payments, some of which were
   later determined to have been improperly paid to individuals who were ineligible or
   who received duplicate payments. The debts in question arose in part because FEMA
   relaxed its internal controls in order to provide expedited delivery of assistance grants
   to displaced disaster survivors. The relaxed internal controls involved potential
   payments of $621.6 million to 167,488 recipients. After reviewing all of the cases, FEMA
   reduced that original estimate and determined that 91,178 recipients, who received
   more than $371 million, were candidates for recoupment. According to FEMA, there is
   sufficient justification to waive the debt obligations and not to recoup payment from
   the other 76,310 recipients, who collectively received more than $250 million in disaster
   assistance.

   The first report (OIG 12-62, March 2012) of this series presented in-depth background
   information, which is encapsulated in appendix B of this report.

   Overview
   As discussed with the Senate’s Committees on Homeland Security and Governmental
   Affairs and Appropriations, and the House Committees on Homeland Security,
   Transportation and Infrastructure, and Appropriations, the Office of Inspector General’s
   (OIG) reporting pursuant to DARFA (§ 565(b)(4)) will follow the ground rules below.

           1. For the purposes of OIG reporting, FEMA efforts are defined as undertakings
           such as (i) notifying potential debtors; (ii) adjudicating and reviewing responses;
           (iii) evaluating support provided; (iv) making arrangements to collect, waive,
           partially waive, terminate debt, and refer matters to the U.S. Department of the
           Treasury; (v) implementing quality control measures; and (vi) training staff to
           perform the above tasks.


www.oig.dhs.gov                                 2                                        OIG-13-17
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           2. The timeframe for the above FEMA efforts will be 15 days prior to the
           legislatively mandated deadline for each of the six serial OIG reports (e.g., the
           next OIG report, which is due on March 23, 2013, will cover our assessment
           activities up until March 8, 2013).

           3. Costs incurred by FEMA will include equipment and contractual expenses,
           salaries of assigned temporary and permanent staff, and refunds to those who
           were originally required to repay their disaster assistance benefits but were later
           deemed eligible for a waiver.

   Results of Review
   FEMA did not always properly grant waivers for DARFA cases it adjudicated. Specifically,
   about 30 percent of the cases we reviewed in our statistically validated sample did not
   have adequate support to grant waivers. Conversely, we determined that
   approximately 70 percent of the cases we reviewed had sufficient evidence to support
   an applicant’s waiver request. For cases that lacked adequate support, we are not
   categorically stating that FEMA should have denied the applicant’s request; rather, our
   review of FEMA’s decisions did not find sufficient information in these case files to meet
   the criteria set forth in either DARFA or FEMA’s implementing regulations to justify the
   waiver. And in some instances FEMA waived debts even though case files contained
   evidence of fault by the debtors that FEMA did not resolve. DARFA forbids waivers of
   debts that involve fault or misrepresentation, and FEMA’s Management Directive on
   DARFA, states that “A waiver may not be authorized if [FEMA] determines the debtor is
   at fault. There are no exceptions to this rule.”

   As of December 10, 2012, FEMA granted waivers for applicants in approximately
   86 percent of the cases it has reviewed. FEMA granted 17,517 waivers and denied 2,852
   waivers totaling $97,664,769 and $15,027,894, respectively. FEMA has recouped
   $2,774,295 from denied waivers. FEMA has expended an estimated $9,569,776 on
   related activities.

   FEMA Waived Disaster Relief Debt Based on Inadequate Information

   We did not find sufficient information in FEMA’s case files to justify about 30 percent of
   the DARFA requests that FEMA authorized. To assess FEMA’s DARFA waiver decision
   making process in July 2012, FEMA provided OIG with information regarding 13,363
   requests totaling more than $74 million for which it granted DARFA waivers. We
   statistically sampled and reviewed 285 of these cases to determine whether FEMA’s
   decision to grant the waivers satisfied the requirements set forth in both DARFA and
   FEMA’s implementing regulations.


www.oig.dhs.gov                                 3                                         OIG-13-17
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   We determined that FEMA waived DARFA disaster debt requests without sufficient
   evidence that the applicant met both the requirements of DARFA and FEMA’s
   implementing regulations. Most of the waiver decisions we questioned involved
   requests where multiple applicants in the same household are paid assistance for
   identical personal property (duplicate payments), rental assistance, and/or expedited
   assistance (a one-time payment of $2,000 for housing). 1 Table 1 summarized the results
   of the 285 waivers that we reviewed.

  Table 1. Summary of Whether DARFA Waiver Decisions Were Adequately Supported
         Reasons for Debt              Documentation                 Documentation Does
                                                                                                               Total
           Recoupment                  Supports Waiver               Not Support Waiver
                                    Number          Amount          Number           Amount          Number         Amount
   Duplication of Benefits              99          $653,258            35          $323,982            134        $977,240
   Occupancy Not Verified               19           47,263             24            48,000            43           95,263
   Housing Assistance
                                       36            107,476             7            18,534            43          126,010
   Overpayment
   Other                               46            188,173            19           167,012            65          355,185
       Total Cases Reviewed            200          $996,170            85          $557,528            285       $1,553,698
  Source: OIG.


   To obtain disaster assistance, applicants must certify, among other things, that they are
   the only individual submitting an application for the type of disaster assistance
   requested in their household and that the disaster aid money will be returned to FEMA
   if they receive insurance or other compensation for the same loss. Applicants are
   required to attest to this by signing a Declaration and Release Form (See appendix D).
   DARFA prohibits the waiver of improper disaster assistance payment if the applicant
   made a false or misleading statement while applying for assistance.

   According to FEMA’s Management Directive, Waiving Debts Pursuant to the Disaster
   Assistance Recoupment Fairness Act of 2011 (Management Directive), applicants are
   presumed to be uninformed about FEMA eligibility requirements. However, the
   directive states an applicant may not be granted a waiver if FEMA determines the
   debtor is at fault and sets forth the following standard:




   1
    FEMA does not consider applicants as receiving duplicative benefits such as expedited assistance where applicants
   are not related or dependents or when receiving rental assistance where applicants relocate to different locations.


www.oig.dhs.gov                                             4                                                    OIG-13-17
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Fault exists, if in light of all the circumstances and based on a reasonable person
           standard, the debtor knew or should have known he or she was receiving an
           overpayment. Fault can derive from an act or a failure to act. Unlike fraud, fault
           does not require a deliberate intent to deceive.

   Additionally, the directive states that FEMA will implement the debt waiver policy
   liberally in favor of the debtor except where FEMA has provided specific written notice
   to the debtor regarding duplication of benefit requirements.

   Importantly, the Management Directive sets forth numerous criteria for FEMA staff to
   evaluate debtor fault. It does not say that FEMA should presume no fault unless there is
   incontrovertible proof of fault. Instead, the directive provides for a FEMA preliminary
   finding of debtor fault in the face of indications of fault, and tells FEMA staff to consider
   conducting a conference call to receive additional information from the debtor. Staff
   “will also request information in writing from the debtor before making a final
   determination of debtor fault.” The directive then sets forth a list of eight separate
   criteria by which to evaluate fault and move from a preliminary to a final determination.

   A FEMA official said that during normal recoupment reviews, FEMA scrutinizes
   applicants from the same household requesting assistance. This official also said that
   DARFA adjudicators focus only on evidence of fraud or applicant fault when reviewing
   “linked” cases—separate applications involving members of the same household, same
   event. Absent such evidence, an applicant is considered a candidate for waiver. FEMA
   guidance does not provide adequate instructions to review and compare linked cases
   for other anomalies, such as Duplication of Benefits. For example, we found no
   indication in the DARFA Job Aid instructing adjudicators to analyze itemized listings (if a
   manual inspection of the dwelling was conducted) of personal property assistance that
   applicants received within the same damaged dwelling for possible duplication.
   Furthermore, the Job Aid does not provide adjudicators clear instructions to verify that
   multiple applicants did not relocate to the same address when receiving rental
   assistance. Consequently, information that is vital to adjudicate cases may not have
   been fully reviewed, which could contribute to the high rate of waiver approval.




www.oig.dhs.gov                                 5                                         OIG-13-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   In February 2012, FEMA sent Notices of Waiver letters to disaster survivors it considered
   potentially eligible for a waiver based on DARFA legislation. Disaster survivors are
   required to notify FEMA in writing if they wanted to apply for waiver and to send FEMA
   a letter specifying why it would be unfair for FEMA to collect their debt. FEMA
   specifically instructed the recipients of the letters that the waiver requests should
   explain one or more of the following: (1) why repaying the disaster assistance debt
   would cause serious financial hardship, (2) they spent the disaster assistance on disaster
   related needs and they have no ability to repay debt, or (3) other personal
   circumstances exist that would make collection burdensome or grossly unfair. In the
   letter, FEMA did not request the debtors to explain why they were not at fault for
   receiving the improper payment.

   Since DARFA limits waivers to instances in which “there was no fault on behalf of the
   debtor” and FEMA regulations require adjudicators to assess debtor fault when making
   a decision to grant a waiver, we think it is reasonable for there to be evidence in the
   waiver case file that explains why the debtor did not cause the improper payment. It
   would have been advisable to ask waiver applicants for a statement to that effect,
   particularly since FEMA asked for other DARFA information in its notifications of waiver
   eligibility. In cases involving evidence of fault or fraud, we believe that before granting
   waivers FEMA had an obligation to ask probing questions and receive satisfactory
   answers either by teleconference or in writing. Such information should be
   documented in the case. We are not suggesting that only a full scale investigation
   would do, only compliance with the relatively cursory procedures contained in FEMA’s
   own guidance, the Management Directive. That would have been consistent with
   DARFA.

   Housing assistance overpayments can occur when ineligible applicants receive payments
   for, among other reasons, rental assistance, home repair, and personal property loss.
   To expedite assistance to disaster survivors, FEMA lowered its internal controls, which
   may have led to overpayments. For example, FEMA provided applicants duplicative
   payments for expedited assistance (applicants receiving funds into their banking
   accounts and a debit card), in such cases, we determined that this was FEMA error and
   no fault of the debtor. In other instances, there was not always sufficient
   documentation to support FEMA’s decision to waive housing assistance overpayments.

   For Hurricanes Katrina and Rita, FEMA provided expedited housing assistance to disaster
   survivors to help meet critical and immediate needs for those displaced from their
   homes. To ensure an applicant’s eligibility for these benefits, FEMA normally would
   have verified the applicant’s occupancy of the damaged dwelling at the time of
   registration for disaster assistance. Following Hurricanes Katrina and Rita, FEMA made
   payments without verifying occupancy. FEMA relied on representations that disaster
   survivors made at the time of applying for assistance. Subsequently, FEMA used a


www.oig.dhs.gov                                 6                                        OIG-13-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   contractor to automatically verify through public records the address that individuals
   included on their applications. FEMA only requested proof from applicants if the
   address could not otherwise be verified. In our sample, many cases lacked evidence
   that an applicant’s occupancy had been verified. It is reasonable to believe that
   applicants should know where they lived at the time of the disaster.

   Although, the vast majority of DARFA cases that we reviewed had sufficient evidence for
   FEMA to grant waivers, the following are examples of cases that lacked sufficient
   evidence to do so.

       •	 Duplication of Benefit With Household Member: The applicant selected in our
          statistical sample registered for assistance with FEMA on September 14, 2005,
          and received $14,781. Four other members of the same household registered
          and received additional assistance totaling $87,469 for expedited housing
          assistance, personal property loss, and rental assistance. Three of the five
          applicants received personal property loss payments totaling $47,451.

           Two of these applicants (married at the time of the disaster) received duplicate
           personal property payments for a range ($689), washer ($539), dryer ($385), and
           refrigerator ($704). A third individual, listed as a dependent of one of these
           applicants, was paid $10,391 for personal property loss through a geospatial
           inspection. A geospatial inspection can cover major household appliances
           similar to the items previously listed. Applicants are typically present when
           inspections are conducted to identify property damages. We find it unlikely that
           multiple applicants within the same household would have duplicate items of
           this type and value.

           According to FEMA, these duplicate payments occurred because verification
           standards had been relaxed following Hurricane Katrina. However, for
           Duplication of Benefit cases, FEMA requires applicants to prove that they lived in
           separate households or lacked knowledge that others in their household applied
           for assistance. The applicant’s case file lacked evidence indicating either of these
           requirements.




www.oig.dhs.gov                                 7	                                       OIG-13-17
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       •	 Ownership Not Verified: The applicant registered as an uninsured property
          owner when, in fact, she did not own the residence. FEMA paid the applicant a
          total of $17,040 ($12,021 for home repair and $5,019 for rental assistance and
          other needs). The records show that the FEMA housing inspector at the time
          incorrectly identified the applicant as the residence’s owner. FEMA initially
          scheduled the applicant for recoupment because the applicant falsely reported
          that she owned the damaged residence and therefore was not eligible for the
          $12,021 to repair the home.

           The waiver case file concluded that the improper payment occurred because of
           FEMA error on the part of the home inspector, who did not discover that the
           applicant was not the true owner. We do not disagree that the home inspector
           is a good internal control that FEMA uses to verify information provided by
           applicants, but the applicant improperly received the $12,021 to repair the home
           she did not own because she provided FEMA false or misleading information at
           the time of registration.

       •	 Not Primary Residence/Ownership Not Verified: On September 5, 2005, the
          applicant registered online as the owner with an active insurance policy for the
          damaged dwelling and received $19,573 for expedited assistance, home repair,
          rental assistance, transportation, and personal property loss. FEMA regulations
          prohibit applicants from receiving individual assistance for damaged dwellings
          that are not their primary residence.

           According to the case file, the applicant was being recouped because FEMA
           discovered that the damaged dwelling address was not the applicant’s primary
           residence at the time of the disaster. The application requires the disaster
           survivor to indicate whether the damage dwelling is her primary residence in a
           distinct, yes or no question. She annotated yes on her application. FEMA
           requested that applicant verify primary residence and ownership of the
           damaged dwelling after the initial registration. The overpayment provided to the
           applicant is a FEMA error because the funds received were a result both of
           applicant fault and FEMA internal controls being lowered or processes being
           changed in order to expedite assistance. FEMA paid the applicant despite
           possessing information of fault. Although there was evidence of ownership in
           the case file, there was no evidence that this was her primary residence.




www.oig.dhs.gov                               8	                                      OIG-13-17
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   FEMA Waived Disaster Relief Debt Based on Adequate Information


   The majority of the cases review (about 70 percent) had sufficient information to satisfy
   all the waiver criteria set forth in both DARFA and FEMA’s implementing regulations,
   including debtor fault. For example, a number of debtors in our sample received
   duplicative expedited assistance payments because FEMA inadvertently sent applicants
   a second payment. Because the applicant did not request the second payment, FEMA
   caused the second payment and the debtor was not at fault.

   Another group of debtors for whom FEMA had sufficient information to waive the debt
   included applicants who previously received disaster assistance and were required to
   obtain and maintain flood insurance. In a draft to this report, we identified an applicant
   who registered as the owner of a damaged dwelling and received $25,600 in disaster
   assistance. A portion of that amount was for housing repair. We initially considered the
   improper payment associated with housing repair to be caused by the debtor because
   he (1) previously received replacement housing for a previous flood-related disaster and
   were therefore on notice of the requirements for future assistance, and (2) he failed to
   maintain flood insurance on the damaged property. FEMA requires the applicants who
   received previous flood related disaster assistance to obtain and maintain flood
   insurance on the damaged property as a condition of the initial assistance.

   FEMA took exception to our interpretation that the debtors caused the improper
   disaster assistance payments when they failed to maintain the required flood insurance.
   We initially considered the debtors as causing this group of improper payments because
   they did not inform FEMA of their previous disaster assistance or their failure to
   maintain flood insurance. Based on FEMA comments we reevaluated our assessment of
   all the cases we questioned. As a result of that second review, we reversed our
   assessment for the flood insurance cases. Unlike the questions on FEMA’s application
   specifically asking such things as (1) if this is or is not your primary residence, (2) if you
   own or rent the property, or (3) who are the occupants and dependents living at the
   primary residence at the time of the disaster; FEMA did not specifically ask registrants if
   they received previous flood related disaster assistance. Rather, FEMA simply asked the
   registrant if they had insurance and the types they had. Therefore, for the flood
   insurance cases, we agreed with FEMA that it had that sufficient information to
   conclude that the debtor did not cause the improper payment.

   Cost Associated With Adjudicating DARFA Request

   FEMA provided OIG with information regarding its DARFA waiver actions and estimated
   costs since December 2011. As of December 10, 2012, FEMA adjudicated 20,369 cases
   totaling $112,692,663 that were initially identified for recoupment. Of that amount,



www.oig.dhs.gov                                  9                                         OIG-13-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   FEMA has granted waivers for applicants in approximately 86 percent of the cases it has
   reviewed. Specifically, FEMA has granted 17,517 waivers and denied 2,852 waivers
   totaling $97,664,769 and $15,027,894, respectively. FEMA has recouped $2,774,295
   from denied waivers. FEMA has expended an estimated $9,569,776 on related
   activities. This includes planning and implementing provisions of the process, training
   employees, and conducting waiver activities.

   Table 2 summarizes FEMA’s decisions on the 20,369 adjudicated disaster assistance
   recipients requesting a debt waiver under the DARFA provisions. A debtor may have
   qualified for a waiver in more than one category, which is reflected in the table by
   occurrence. Under the current DARFA process, FEMA may grant either a full or partial
   waiver based on applicants meeting five basic eligibility requirements. This includes
   applicants receiving payments based on FEMA error. According to FEMA’s Management
   Directive, Waiving Debts Pursuant to the Disaster Assistance Recoupment Fairness Act of
   2011, FEMA error may have resulted from manual processing errors, failure of FEMA
   personnel to include information in the system, failure of personnel to verify disaster-
   related loss or need before authorizing payment, or adoption of a new policy during a
   disaster.

   Table 2. FEMA Granting or Denying DARFA Waivers
                                                       Waivers                      Waivers
      Reasons for Debt Recoupment      Occurrences                  Occurrences
                                                       Granted                       Denied
    Duplication of Benefits With             6,880    $52,050,604           677     $4,275,540
    Household Member
    Duplication of Benefits With             1,493      7,866,335           631       4,136,686
    Insurance
    Another Member of Household                720      5,964,545             61       464,625
    Received Insurance
    Housing Assistance Overpayment           2,950      6,879,435           400       1,421,070
    Home Repair/Rental Assistance
    Occupancy Not Verified                   3,566      7,940,623            708     1,873,942
    Not Primary Residence (Students)           904      2,704,335            119       348,190
    Not Primary Residence                      660      3,427,617            127       840,782
    Other                                    3,579     10,831,275            557     1,667,059
    Total                                   20,752    $97,664,769          3,280   $15,027,894
   Source: FEMA.

   Table 3 lists the costs FEMA has incurred implementing the provisions of DARFA. Costs
   include planning and implementing provisions of the process, training staff, and
   conducting waiver activities. According to FEMA, no additional staff has been hired, and
   a majority of FEMA’s adjudicators at the Virginia National Processing Service Center
   have received training to answer DARFA waiver applicant questions.




www.oig.dhs.gov                              10                                      OIG-13-17
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



                                Table 3. DARFA Total Estimated Costs

                                        Category                 Cost
                                      FEMA Staff                 $5,548,537
                                     Contracting                    111,339
                                   Applicant Refunds              3,909,900
                                     Overall Total               $9,569,776
                                 Source: FEMA.

   FEMA continues to process DARFA cases; therefore, it is too early to determine the cost-
   effectiveness of this project. This issue will be addressed in future reports as
   information becomes available.

   Management Comments and OIG Analysis
   FEMA disagrees with our conclusion that a number of sample DARFA cases lacked
   adequate support to be waived. 2 According to FEMA, contrary views on waiver
   requirements resulted from differing interpretations of DARFA’s legal requirements by
   FEMA and OIG.

   FEMA makes the claim that because all DARFA applicants received improper payments,
   any consideration of an individual’s eligibility for disaster assistance is irrelevant to a
   waiver determination. FEMA concludes that it cannot require debtors to provide
   evidence of eligibility for assistance as a condition for a waiver. However, DARFA and
   FEMA guidance specifically state that debts may not be waived if there was any fault by
   the debtor; they do not make an exception for fault in claiming eligibility.

   FEMA asserts that the OIG interprets the law to require an assessment of eligibility to
   weigh debtor fault. The agency says DARFA assumes each debtor who receives a waiver
   is ineligible for the assistance they received; nevertheless, allows them a waiver
   provided the debtor did not know or should not have known he was receiving an
   overpayment. Furthermore, FEMA does not consider it necessary for the debtor to
   demonstrate that he was not at fault for receiving and improper payment. FEMA states
   that Congress intended a broad application of DARFA and thus it stated in its
   Management Directive that fault would be narrowly construed in favor of the debtor
   and presume that the majority of debtors were not at fault due to FEMA error. A copy
   of FEMA’s comments in their entirely is in appendix B.


   2
    We provided FEMA with a discussion draft report that contained preliminary results. At the time, we
   were in the process of vetting our review of sampled DARFA cases. Subsequently, these results changed.


www.oig.dhs.gov                                      11                                             OIG-13-17
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   We acknowledge a difference of opinion on interpreting DARFA requirements. But the
   OIG does not take the position that DARFA requires an assessment of eligibility for all
   applicants or that applicants must affirmatively prove lack of fault. We state only that
   FEMA’s files lacked documentation for waiver decisions in many cases, and that FEMA
   should not have ignored indications of fault. We believe that the actions an applicant
   takes at the time of disaster assistance registration indicating fraud or fault should be
   properly considered in the adjudication of DARFA cases. Thus, we did not consider a
   FEMA error to negate debtor fault automatically. DAFRA section 2 (A) states that FEMA
   may waive a debt if “…there was no fault on behalf of the debtor.” In addition Section 2
   (B) states that FEMA “…may not waive a debt … if the debt involves fraud, the
   presentation of a false claim, or misrepresentations by the debtor ...” Thus, if according
   to FEMA rules the improper payment occurred because the debtor made a false
   representation concerning such things as (1) owning a home that they rented, (2) other
   individuals at the same address did not receive benefits for the same damaged property,
   (3) the damaged dwelling was not their primary residence at the time of the disaster, or
   (4) not maintaining flood insurance because they previously received disaster assistance
   on the same property; absent evidence to the contrary, DARFA Sections 2 (A) and (B) do
   not authorize FEMA to waive the debt because improper payment occurred because of
   debtor actions.

   Clearly, DARFA does not require a re-examination of each applicant’s eligibility for
   disaster assistance; rather, we interpret DARFA and the Management Directive to
   require FEMA to review the facts and circumstances of the debt and evaluate them
   against all the provisions of DARFA to grant a waiver. Additionally, it is not
   unreasonable to expect someone to be able to respond to questions about their
   residency status, such as where they live and if they rent or own. Furthermore, we
   believe it was reasonable to have invited the debtor to provide any information
   regarding why he or she did not cause the improper payment. FEMA’s Notice of Waiver
   appropriately required an explanation of why it would be against equity and good
   conscience for FEMA to collect the debt, but the notice did not ask for a response on
   another DARFA requirement, fault. For example, FEMA considers inviting a debtor to
   provide information about eligibility for assistance to be a burden. We fundamentally
   disagree, and as we have stated previously, FEMA guidance requires a more thorough
   review of case file content when presented with fault or fraud indicators.




www.oig.dhs.gov                               12                                       OIG-13-17
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Congress may have intended a broad application of DARFA; however, we did not
   interpret this to mean that evidence of debtor fault would be ignored. In their
   response, FEMA cites examples of two Senators to support its views on broadly granting
   waivers. They quote a press release of Senator Landrieu, but it does not address the
   issue of fault. They also quote Senator Pryor’s testimony but we conclude that
   testimony supports the OIG view. Of course applicants are eligible for waivers when
   FEMA alone was at fault, as the example of the Arkansas couple in the Senator Pryor’s
   example. But that couple was led astray by FEMA, and “made no mistakes. They
   followed the rules . . . There is no allegation of fraud or that the couple in any way
   misled anyone . . . [They were] “folks who had been playing by the rules.” The Senator
   went on to say that “our bill will not give a blanket exception” for all benefits recipients.
   157 Cong. Rec. S2394 (April 12, 2011).

    Consistent with FEMA comments, we interpreted DARFA to mean that all relevant facts
   would be assessed equally. Additionally, reviewing the validity of FEMA’s adjudications
   of DARFA waivers directly relates to our objective of evaluating the cost effectiveness of
   its efforts with this project. For example, in order to conduct a cost benefit analysis, we
   need to know what FEMA spent and waived, compared to what will be recouped.




www.oig.dhs.gov                                 13                                        OIG-13-17
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objective, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this review was to provide an interim report on the cost-effectiveness
   of FEMA’s efforts to recoup improper payments in accordance with DARFA. To
   accomplish our objective, we reviewed and analyzed FEMA’s Management Directive,
   Waiving Debts Pursuant to the Disaster Assistance Recoupment Fairness Act of 2011;
   Federal laws, regulations, and testimony; prior OIG reports relevant to our review; and
   other applicable documents.

   We interviewed FEMA employees regarding the agency’s processes for adhering to
   DARFA regulations. We also reviewed a statistical sample of DARFA cases for which
   FEMA granted waivers, in order to determine if FEMA granted waivers in accordance
   with DARFA requirements. To conduct our review, we obtained from FEMA a list of
   13,363 DARFA cases (as of July 19, 2012) that it had waived for recoupment. Using the
   Interactive Data Exploration and Analysis software, we randomly selected 285 for our
   sample. We used FEMA’s National Emergency Management Information System to
   analyze the cases to determine if they met DARFA requirements for a waiver. For cases
   that were identified as Duplication of Benefits, we reviewed the cases of linked
   applicants. Fieldwork was conducted at FEMA headquarters in Washington, DC, and at
   the National Processing Service Center in Winchester, VA.

   We conducted this review between September and December 2012 under the authority
   of the Inspector General Act of 1978, as amended, and according to the Quality Standards
   for Inspections issued by the Council of the Inspectors General on Integrity and Efficiency.

   We appreciate the efforts by FEMA management and staff to provide the information
   and access necessary to accomplish this review.




www.oig.dhs.gov                                14                                        OIG-13-17
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report 3


                                                                                          U.S. Ihl,.nmtUI or il olll d . u d St..llrlly
                                                                                               W:a.>hiIl Nltlll. I>C 2().172




                                                                                :1~~
                                                                                   ~; FEMA
                                                                  December 17, 20 12


                Kaye McTighe
                Director
                M itigntion and Disastcr Ass is tallcc Division
                Department of )-Iomeland Securi ty
                Office of Inspec tor General
                245 Muml)' Lane, \V
                Wmihington , DC 20528

                By F(lcs imi le: (202) 254 -4294

                Dear Ms.   McTi~hc :


                The lollowin~ constinlles the response of the Fedeml Emergency Management Agency (FEMA)
                to the dmft fourth report of the Department ofl-lomc land Security Inspector General (OIG) on
                FEM A's implementation of the Disaster Assistance Recoupment Fairness Act of2011
                (DARFA). Il i~ FEMA' s view tlmt thi s report evidences FEMA und the O IG have significantly
                difTerent interpretations ofDARFA's legal req uirements, This difference in interpretation
                inr.!:<onlbly leads to differing v iews about what is required to justify an agcney dctennination that
                it debt should be waived , FEMA, therefore, takes exception to tile OIG 's conclusion in its dr.1rt
                report that F EMA lacked ndequatc su pport for 39% of the cases it waived.

                A s you arc aware, DARFA provides e:< trilordimcry authorit y to FEMA to waive certain debts
                owed to the Uni ted S tates if the debt resulted from FEMA error, therc was no fau lt on behalf of
                the debtor. and collection of the debt would be against C(lu ity and good consc icnce. In addi tion.
                FEMA may not wDive nny debt under DARFA if the debt involves fraud , the presentation ofn
                fa lse c ltlim , or mi srepresemation by the debtor or nny party having an interest in the clai m.
                FEMA guidance implementing DARFA wos publi shed in t he Federal Reg ister as a Munagemcnt
                Directive.

                As an initial mailer. FEMA interprets DARI~A as rendering moot ony consideration ofo
                particular individual's e ligibility for disaster assist:lnce. The w;livcr provisio n authoriOGed by
                DAllfA is ex plicit ly limited to " n debt owed to the Uni ted States." By definition , there lo re , the
                only ind ivid ual s eligible to apply for a DARFA waivcr are debtors and they cannot be debto rs
                unless they rccei\'cd an overpayment . Fundamentally. therefore. FEMA cannot require debtors
                to dClIlonstmtc eligibil ity for nssisumee as a condition to providing a waiver under DA RFA.
                S uch a requi rement would render J)ARFA meaningless.




   3
    We provided FEMA with a discussion draft report that contained preliminary results. At the time, we were in the
   process of vetting our review of sampled DARFA cases. Subsequently, these results changed.


www.oig.dhs.gov                                                    15                                                                     OIG-13-17
                                        OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report


              Kaye ~kTighe
              Page 2

              The OIG 's droH fo unh rcpon takes issue with the luck of FEMA Jub Aid instruc tions fo r
              analyzing duplicnlion for personal propcny lind for verifying that Illu lt iple applieant:s: did not
              relocatc to the same address. In its firs t bulleted example ofn ense FEMA wa ived "despite
              I..eking :s:ullicicnt evidence to do so:' the OIG states the applicant lail ed to submit any evidence
              proving she either li ved in a separme household or thnt she lacked knowled£c that others in thc
              household applied for ass istance. In its third bu lleted example. the O IG indicates the applica nt
              fa iled to providl: l:videncc the home was her primary reside nce. In our view, these statcments
              ind iente the O IG's view of DARFA depans significantly from FEMA's interpretation of the law.

                                                                  ,I
              FEMA illlerprels DARfA as 1I0t requirilll:\ re-examination or eligibility, making it unnecessary
              to. for exnmple, require an applicant demonstrate a home was her primary residence. Numerous
              publie and noor SllllemelllS made by the drafters of DARFA sllpport our view in thi:s: matter. For
              ex ample, Senator Mary Landrieu said, " I expect FEMA to mnke sure it docs 110t \lI\fai rly tnrget
              people who had a legit imate need fo r help. or those who lostlegnl documents, leaving them
              unable to prove their eli gibility fo r assistance:· 1 Similarly. Senator Mark Pryor, in his fl oor
              statement, rel ated lhe case of an Arkansils couple who werc clearly ineligible lor assistance. but
              received a ma... imum gmnt due to .., EMA error. Senato r Pryor explained. "We wish tu give the
              FEMA Director the authority to h,,,'C some discretion on some of thl'se hardship type cases.
              especially where the person who received the benefit did it purely by , I fEMA cITor: ·2 Thus, we
              be lieve it is clear that the principal sponsors of DARF A designed it precisely to allow FEMA to
              waive debt where otherwise ineli gible appl icnn ts received money fro m FBMA

              T he 0 10 oP I>cnrs, however, to interpret the luw .IS requiring an <lssesslllent of eligibility in order
              to weigh whether there was debtor fault. Resl>cetfull y, FEMA sugl:\csts this is not rcquired by
              the law and is a circul ar :lfgument. \\le believe OARFA assumes each debtor who receivcs a
              waiver was ineligible for the assistance they received and ncvenheless all ows a waiver fo r these
              persons provided the debtor did not know or should not have known he was receiving an
              overpnylllclll. The "know or should have known" standard must be judged against the onen
              chaotic circumstances surrounding the provision of FEMA assistance and it is reasonable to
              assullle that most indiv iduals who apply for FEMA assistance have no specific knowledge about
              FEMA eligibi lity requi rements. In addit ion . FEMA's abi lity to judge debtor fault is lim ited
              given the lengthy passage of time since thc overpayments were I1r5t provided.

              FEMA bel ieves Congress intended a broad applicat ion o f DARF A and thus stated in its
              Managemcnt Direct ive that it would construe the standard for debtor fau lt very narrowly in favor
              of the debtor tlnd presume that the majority of debtors were 1I0t at 1~1U1t , given the nature of
              FEMA's del ivery of its assistance. Fundamentally, FEMA docs not interprct DARFA as
              requiring debtors aninnativcly to prove they were without fault . Where there was evidence of
              debtor fault in the record, we examined that evidence. We did not presume a debtor was at fault ,
              however. merely bee~mse she failed to explain why she did not know she was ineligible for the
              overpayment she received. Again, the Congress ional noor statements IIrc ill ustrative.
              Describi ng the need for the legislation thot would becomc DAR.FA. Se nator Pryor reported <I

              I Pr.:ss Rd ':IISI: orSenlitor Mary L. Lal1drieu. d aled January 5, 2011.
              http://www.landricll.gnaJ£ goyl" p""prcss rclca.~c&id 1249.
              ~ 157 Congo Ret:. S239·' (Aprit 12. 2011XstutcmCIlI or Sen. Pryor on S. 792). l!.l!n;{/www.epo.pnv fdws.lol.:!!ICREC.
              20 11 ·Q.J- I" ndrCREC_2011·04 _12_pt I·P!!S2189 rulf




www.oig.dhs.gov                                                        16                                                             OIG-13-17
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report


              Kilye McTighe
              rage 3

              case involving a couple who lived in n sanctioned com munity and were thliS ineligiblc to buy
              flood insurance through the I ational Fl ood Insurance Program. In his remarks. the Senator
              makcs clear the couple kncw thc)' lived in a sanctioncd COlllllHlIl ity, "Thl.:y had paid the ir
              premiums OUI ort heir pockets as long as they could , flS long flS they could find insurance, fi nd flS
              that was canceled ovcr thc years, the coullty hadn't come through:') Still , the Senator argued Ih;11
              FErvlA needed authority 10 waive this sort of debt, notwithstanding that anyone owni ng a home
              in a sanctioned comm un ity is, at n minimum , eonstnlcti ve noti ce that they arc not eligible for
              disaster assistance.

              In its rounh bu ll eted example. the OIG concludes it is reasonable to believe on applicant
              "knowi ngly failed to submit relevant inlb nnat ion at the time of disaster" given the appli cant had
              reeeivcd FE1\,'IA assistance prev iously and I~lilcd to infonn FEMA hcr Hood insurance coverage
              had ex pired. Thi s example perha ps best illustrates the dirrcrence between the FEMA and OIG
              leg;.!1 interpretation. Applicants who .lllow their flood insu •..t.nce coverage to expire are sti ll
              el igible lor somc FEMA assistancc. In cxccuting DA RF A FEMA presumcd debtors were nut
              aware of when the lapse or insurance coverage prevents FEMA assistance and when a lapse docs
              not affect FEMA assistance. The OIG apparent ly believes FEM A was obligated by DARFA to
              requ ire the debtor in th is case to prove why she did not know she was ineligible for the assistance
              she received in order to demonst rate she was 1I0t al fault. FEMA docs not believe DARFA
              requires debtors bear sllch a burden .

              II is not entirely clear to FEMA why the OIG is assessi ng the validity orFEMA's detenninnlions
              with respect to debtor fault ~ivc ll DARFA di rl.:cts thl..! 0 10 to assess the cost eflccti veness or
              FEMA 's errorts, not its substantive interpretnt ion orthe law. Nc,'crthelcss, as discussed durin);
              our conference call concerning this topic 0 11 December 14, 20 12, FEMA recogn izes that it and
              the 0 10 wi llli kc ly agree to di sagree 0 11 how OARFA should be appl ied with respect to dcbtor
              fault. GivclI our di Ohcnces or legal interpretation. fEMA requests that when the OIG indicates
              in any report that FENIA did nOI have "adequate support to grant waivers," that it also indicatc its
              opinion in th is regard is premised on a legal il1lcrpretation that dilTcrs from FEMA's. Th is
              differe nce in interpretati on then leads to a difference in opinion on what level o rdocumcntation
              in a file is appropriate before FEMA grants a waiver.

              FEMA has not been provided an opponunilY 10 add ress every case in the OIO's statistic,,1
              sample, however, we arc conlidenl we executed DAR FA nnd the debtor fault prong of lllc law
              approprilltely. We appreciate this opportunity ror review and response.




                                                             Adrian Sevier
                                                             Deputy Chier COllnsel




www.oig.dhs.gov                                                17                                                       OIG-13-17
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   In-Depth Background
   For disasters declared between August 28, 2005, and December 31, 2010, FEMA
   disbursed more than $8 billion in assistance payments, some of which were later
   determined to have been improperly paid to individuals who were ineligible or who
   received duplicate payments. In 2006, FEMA began recoupment efforts in an attempt
   to recover the misspent public funds. In 2007, a group of Hurricane Katrina disaster
   assistance applicants facing recoupment filed a class action lawsuit against FEMA,
   alleging that it did not provide sufficient procedural due process. The plaintiffs
   successfully petitioned the court to issue an injunction enjoining FEMA from continuing
   its recoupment activities. In 2008, in light of the injunction and revised DHS debt
   collection regulations, FEMA terminated its recoupment process. As a result, FEMA
   withdrew recoupment notifications that it sent to survivors of Hurricanes Katrina and
   Rita and later disasters, and proceeded to reexamine files for evidence of overpayment.
   FEMA also began to redesign its recoupment and debt collection procedures to conform
   to agency regulations.

   In 2011, FEMA commenced the revised recoupment process for the collection of
   overpayments. From March through December 2011, FEMA mailed nearly 90,000
   notices of debt and considered thousands of appeals and requests for payment plans
   and compromise.

   Some members of Congress were concerned about the fairness of FEMA collecting
   overpayments that had been the result of FEMA error and when a significant amount of
   time had elapsed before FEMA provided actual notice to the debtors. As a result of
   these concerns, Congress passed, and the President signed, DARFA (section 565 of the
   Consolidated Appropriations Act, 2012, P.L. 112-74).

   DARFA authorizes the Administrator of FEMA to waive a debt arising from improper
   payments provided for disasters declared between August 28, 2005, and December 31,
   2010, if the excessive payment was based on FEMA error; there was no fault by the
   debtor; collection of the debt is against equity and good conscience; and the debt does
   not involve fraud, a false claim, or misrepresentation by the debtor or others with an
   interest in the claim. FEMA is authorized to grant a waiver to eligible debtors with a
   2010 adjusted gross income less than or equal to $90,000; and, subject to certain
   conditions, only a partial waiver to those with an adjusted gross income greater than
   $90,000.




www.oig.dhs.gov                               18                                      OIG-13-17
                    OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


   Appendix D
   FEMA Declaration and Release Form




www.oig.dhs.gov                   19                    OIG-13-17
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretariat
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Chief Counsel
   Chief of Staff
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   United States Senate
   Committee on Homeland Security and Governmental Affairs
   Committee on Appropriations, Subcommittee on Homeland Security

   U.S. House of Representatives
   Committee on Homeland Security
   Committee on Transportation
   Committee on Appropriations, Subcommittee on Homeland Security


www.oig.dhs.gov                                 20                  OIG-13-17
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
